REVIEW OF REPORTED NEAR MID-AIR
  COLLISIONS IN THE NEW YORK
     METROPOLITAN AIRSPACE
      Federal Aviation Administration
       Report Number: AV-2008-050
        Date Issued: April 24, 2008
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of Reported Near Mid-Air                   Date:    April 24, 2008
           Collisions in the New York Metropolitan Airspace
           Federal Aviation Administration
           Report Number AV-2008-050

  From:    David A. Dobbs                                         Reply to
                                                                  Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Acting Federal Aviation Administrator

           This report provides the results of our review of reported near mid-air collisions
           (NMACs) in the New York metropolitan airspace. The review was initiated in
           response to a June 11, 2007, letter from Senator Hillary Rodham Clinton. In her
           letter, Senator Clinton expressed concern regarding five reported NMACs
           involving commercial aircraft in the New York metropolitan airspace during May
           2007 and requested that we investigate the incidents. A copy of Senator Clinton’s
           request can be found at exhibit D.

           The objectives of our review were to address the following questions posed by
           Senator Clinton: (1) What is the root cause of the near misses in May 2007 in the
           New York airspace? (2) How is the Federal Aviation Administration (FAA)
           addressing these problems and what measures has the FAA taken to prevent repeat
           occurrences? (3) Do any of the New York area airports practice a similar type of
           procedure that FAA ordered a halt to at the Memphis airport where FAA allowed
           planes to simultaneously land and depart from nearby runways that have
           intersecting flight paths? Additionally, Senator Clinton’s staff requested that we
           determine if air traffic controller staffing may have been a contributing factor to
           the incidents.

           We conducted the review between June 2007 and January 2008. Our scope and
           methodology can be found at exhibit A. Exhibit B lists the organizations we
           contacted or visited.
                                                                                2


FAA defines a NMAC as “an incident associated with the operation of an aircraft
in which a possibility of collision occurs as a result of proximity of less than
500 feet to another aircraft, or a report is received from a pilot or flight
crewmember stating that a collision hazard existed between two or more aircraft.”

Only a pilot or flight crew member may report a NMAC. The preliminary report
is filed with FAA’s Air Traffic Organization (ATO) and submitted to the Flight
Standards line of business. Flight Standards inspectors conduct the NMAC
investigation in response to the preliminary NMAC report. They determine the
cause and hazard classification and then create the final NMAC report. Flight
Standards inspectors classify each NMAC according to the following collision
hazards.

 • Critical—a collision was barely avoided by chance rather than pilot actions
   with less than 100 feet separation.
 • Potential—a collision was avoided due to pilot action with less than 500 feet
   separation.
 • No Hazard—a collision was improbable regardless of any evasive action taken.

NMAC reports are not reclassified or omitted from the NMAC system, regardless
of the final hazard classification. For example, a NMAC report determined by
Flight Standards to be “no hazard” remains in the NMAC system, counted and
referred to as a “near mid-air collision.”

Four of the five NMAC events in the New York area, during May 2007, involved
incidents between commercial aircraft and unidentified general aviation aircraft.
In these incidents, the commercial aircraft were operating under instrument flight
rules (IFR), and were under direction of controllers at the New York Terminal
Radar Approach Control (TRACON) (N90). The unidentified general aviation
aircraft were operating under visual flight rules (VFR) and using “see and avoid”
techniques, meaning they were not under direction of controllers.

The fifth NMAC event involved two commercial aircraft (one operating under IFR
and one operating under VFR); both were under control of the tower at John F.
Kennedy International (JFK) Airport.
                                                                                       3



                Table 1. Five Reported NMACs During May 2007
                             in New York Airspace
       Date      Facility/NMAC     Reporting             2nd             Hazard
                    Number       Aircraft/Flight    Aircraft/Flight   Classification
                                     Rules              Rules
      5/1/07       N90-003        JetBlue/IFR      Unidentified/VFR    No Hazard

      5/5/07       N90-004        JetLink/IFR      Unidentified/VFR     Potential

      5/8/07       N90-005        JetBlue/IFR      Unidentified/VFR    No Hazard

      5/21/07      N90-006       Continental/IFR   Unidentified/VFR    No Hazard
                                   American              US
      5/17/07       JFK-001                                            No Hazard
                                   Eagle/IFR       Helicopter/VFR

As shown in table 1, four of the five incidents were classified as no hazard. Only
one incident (N90-004) was classified as a potential hazard. This incident
involved a glider that did not have a transponder, which provides controllers with
data on the location, altitude, speed, and type of aircraft. When the commercial
pilot saw the glider directly ahead of him, he initiated an immediate descent to
avoid a collision. The 2 aircraft came within approximately 200 feet of each other.

While the other four incidents were determined to be no hazard, they will continue
to be classified and counted as a NMAC under FAA’s current reporting system for
NMACs. In our opinion, the lack of a procedure for reclassifying no-hazard
events may contribute to misperceptions regarding the actual safety risk posed by
an incident.

RESULTS IN BRIEF
Overall, we found that the five NMACs were independent, unrelated events with
no obvious common root causes. Four of the five events were later determined to
be no hazards; only one was classified as “potential.” These NMACs were
reported by commercial IFR pilots who may have been initially “surprised” by the
location of the VFR aircraft in nearby airspace, but the incidents actually posed no
risk to safety regardless of any actions taken by the pilots. However, the four no-
hazard incidents continue to be classified and counted as “near mid-air collisions,”
a term that we believe misrepresents the actual safety risk posed by an incident.

While we found no common root causes among the five events, there were similar
characteristics associated with four of the five NMACs while the aircraft were
under direction of controllers at the New York TRACON (NMACs N90 003
though 006). These included the following:
                                                                                  4


 • The type of airspace in which the NMAC occurred—all four events were in
   airspace that allows both commercial IFR aircraft (under direction of air traffic
   controllers) and general aviation VFR aircraft (operating under “see and avoid”
   techniques and not under direction of controllers) to operate simultaneously.
 • A change in the type of airspace—three of the four events occurred near the
   boundary of airspace that is less restrictive (where VFR aircraft are not under
   direction of controllers), and more restrictive airspace (where commercial
   aircraft operate under direction of controllers), for aircraft departing from or
   arriving at New York area airports.
 • A change in the controller responsible for directing the aircraft—three of the
   four events occurred near the time when the responsibility for directing the
   commercial IFR aircraft was in the process of being “handed off” from one
   controller to another.

To address vulnerabilities associated with the existing airspace, the current routes
used by commercial aircraft over New York would need to be altered or restricted.
FAA has an ongoing project to redesign the airspace in the New York/New
Jersey/Philadelphia metropolitan areas. The intent of the project is primarily to
accommodate growth in aviation operations while enhancing safety and reducing
delays.

As part of the review and development of new or revised air traffic procedures
implemented under airspace redesign, FAA must evaluate whether commercial
IFR arrival and departure routes into and out of the New York metropolitan area
should be redesigned or restricted to minimize potential conflicts with general
aviation VFR air traffic.

FAA also determined that better Air Traffic services could have been provided by
the controllers in two of the four N90 NMACs by alerting the commercial IFR
pilots that an unidentified VFR aircraft was in their vicinity. As a result of those
events, Air Traffic management issued an Air Traffic Bulletin in September 2007
to remind all controllers of procedures for merging targets and the importance of
providing traffic advisories to pilots.

The NMAC at JFK (JFK 001) differed from the other four N90 NMACs as it
occurred at the airport near the runway surface. While the incident did not pose a
safety risk, FAA took action to prevent a reoccurrence by changing a departure
procedure for helicopters. At the time of our site visit, the new departure
procedure was only agreed upon verbally between JFK Air Traffic management
and that particular helicopter operator. We recommended that JFK formalize the
new procedure by amending the existing written Letter of Agreement (LOA)
between the helicopter operator and the tower that outlines the standard operating
                                                                                                           5


procedures and coordination actions used by the two parties. In response to our
recommendation, FAA and the helicopter operator revised the LOA in November
2007.

None of the five NMACs were the result of a controller operational error (when a
controller fails to maintain required separation between two aircraft). In the four
N90 NMACs, only the commercial aircraft were under the direction of air traffic
controllers at the time of the incidents. The other aircraft involved were operating
under VFR. In the NMAC at JFK, the two aircraft were being directed by
different controllers; however, in the final NMAC report the inspector determined
there was no loss of separation between the two aircraft.

None of the New York metropolitan area airports use an Air Traffic procedure
similar to the procedure that FAA discontinued at Memphis International Airport.
FAA determined that the former procedure at Memphis (which allowed aircraft to
land on a runway while overflying an aircraft that landed on a nearby runway with
an intersecting flight path) violated Air Traffic procedures.

While Newark Liberty International Airport does not use that specific procedure,
there is an unresolved issue between the New York TRACON and the Newark
tower. The issue involves which facility should assume responsibility for
staggering arrivals when a certain runway configuration is in use at the airport.
FAA should conduct a safety analysis of this runway configuration to identify
measures needed to enhance safety and reduce the potential for “go-arounds.” 1
The analysis also should designate responsibility for staggering approaches when
that configuration is in use.

Finally, since events determined to be no hazard remain classified as a NMAC,
there may be significant misperceptions regarding the proximity and the risk to
safety of reported mid-air events. FAA should restructure the existing NMAC
reporting process so that the actual safety risks posed by reported events are
accurately reflected. Actions to better reflect actual safety risk could include
developing a procedure to reclassify no-hazard events, redefining the NMAC
criteria, or revising the term “NMAC.”

Our recommendations, listed on page 16, include the following:




1
    A “go around” is when a pilot decides—or a controller instructs an arriving aircraft—to abort its landing
    and go around for a second attempt.
                                                                                 6


• Evaluating, as part of the review and development of new or revised air traffic
  procedures under airspace redesign, whether commercial IFR routes into and out
  of the New York area should be redesigned or restricted to minimize potential
  conflicts with VFR air traffic.

• Restructuring the existing NMAC reporting process so that the actual safety
  risks posed by reported events are accurately reflected.

FAA’s comments and our response are discussed on pages 16 and 17.

FINDINGS

Four of the Five NMACs Had Similar Characteristics
We found that the five NMACs that occurred in May 2007 in the New York
metropolitan airspace were independent, unrelated events with no obvious
common root causes. However, our review of the four N90 NMACs found three
similar characteristics that may have contributed to the events. Those are: (1) the
nature of Class E airspace, (2) the proximity to a change in the class of airspace,
and (3) the proximity to change of Air Traffic Control responsibility. Table 2
depicts which characteristics were evident in each of the four N90 NMACs.

        Table 2. Similar Characteristics of the Four N90 NMACs

            Date      Facility &   Nature of   Proximity to   Proximity to
                       NMAC         Class E     Change of     Transfer of
                       Number      Airspace     Airspace        Control
           5/1/07      N90-003        Yes          Yes            No
           5/5/07      N90-004        Yes          Yes            Yes
           5/8/07      N90-005        Yes          No             Yes
           5/21/07     N90-006        Yes          Yes            Yes

Airspace is divided into various classes with varying entry requirements. For
example, in Class A airspace (high altitude), and Class B, C, and D airspace (near
airports), all aircraft must establish two-way communications with Air Traffic
Control before entering that airspace. In Class E airspace, however, VFR aircraft
can operate without establishing communication or receiving direction from Air
Traffic Control, and they are responsible for ensuring separation from other
aircraft by simply applying “see and avoid” techniques. Class B is the most
restrictive airspace while Class E is the least restrictive. Figure 1 represents
various classes of airspace in the New York metropolitan area and the locations of
the four N90 NMACs and the NMAC at JFK.
                                                                                7


         Figure 1. Various Classifications of New York Airspace




 Note: Not to scale, NMAC locations are not actual representations.

Nature of Class E Airspace
As shown in figure 1, each of the four N90 NMACs occurred in Class E airspace.
The four NMACs occurred between a commercial aircraft (operating under IFR
and in communication with Air Traffic Control) and an aircraft operating under
VFR using “see and avoid” techniques (not in communication with Air Traffic
Control). In each event, both aircraft were legally operating in Class E airspace.

Proximity to a Change of Airspace Class
In three of the four N90 NMACs (N90 003, 004, and 006), the incidents occurred
near the boundary of Class E airspace and Class B or D airspace where
commercial aircraft are departing from or arriving at New York area airports. This
may have contributed to the pilots’ “surprise factor,” thus leading to the pilots’
decision to report a NMAC. Commercial pilots leaving one class of airspace and
entering another may not maintain an awareness of the transition in airspace and
may be surprised when encountering an unidentified VFR aircraft in Class E
airspace. Conversely, VFR pilots in Class E are more likely to maintain an
awareness of the boundary of Class E airspace, as VFR pilots entering another
class of airspace could result in a violation (i.e., a pilot deviation).
                                                                                    8


Proximity to the Time of a Transfer of Control
For three of the four N90 NMACs (N90 004, 005, and 006), the proximity to a
transfer of control was a shared characteristic. These NMACs occurred near the
time when the control responsibility for the commercial IFR aircraft was
transferred (handed off) from one controller to another.

To adequately address these three issues, the existing airspace used by commercial
aircraft over New York would need to be altered. FAA has an ongoing redesign
project for the New York/New Jersey/Philadelphia metropolitan airspace. The
primary intent of the project is to accommodate growth in aviation operations
while enhancing safety and reducing delays. As part of the review and
development of new or revised air traffic procedures implemented under airspace
redesign, FAA must evaluate whether commercial IFR arrival and departure routes
into and out of the New York metropolitan area should be redesigned or restricted
to minimize potential conflicts with general aviation VFR air traffic. Further
details on the four N90 NMACs follow.

 • NMAC N90-003: The controller issued traffic advisories to the pilot and
   instructed the pilot to turn so that the commercial aircraft would pass behind
   the unidentified VFR aircraft. This incident occurred in Class E airspace
   shortly after the IFR aircraft transitioned from Class D to Class E airspace.

 • NMAC N90-004: This incident occurred with a glider that did not have a
   transponder, which provides controllers with data on the location, altitude,
   speed, and type of aircraft. When the Continental Express pilot saw the glider
   directly ahead of him and within 200 feet, he initiated an immediate descent to
   avoid collision with the glider. The pilot stated that a collision would have
   been imminent had he not taken evasive action.

   Since the glider was not visible on radar until the last second, the controller
   was unable to provide traffic advisories regarding the glider; however, the air
   route traffic control center controller advised the pilot of glider activity before
   handing the aircraft off to the New York TRACON.

   The FAA inspector responsible for investigating the incident told us that
   gliders legally operate in the major arrival corridor in Class E airspace for
   Stewart Airport, John F. Kennedy Airport, La Guardia Airport, Teterboro
   Airport, and Newark Liberty Airport. The inspector also suggested that the
   airspace be changed or restricted. This incident occurred in Class E airspace
   shortly after the IFR aircraft was handed off from one controller to another.
                                                                                  9


 • NMACs N90-005 and N90-006: Both NMACs occurred in Class E airspace
   near the time when the IFR aircraft were handed off from one controller to
   another. FAA determined that the controller alerting the pilots of unidentified
   general aviation aircraft in their vicinities could have provided better Air
   Traffic Control services (e.g., a traffic advisory). Those actions may have
   prevented the NMAC by eliminating the pilots’ surprise factor. FAA issued an
   Air Traffic Bulletin in September 2007 to remind controllers of the importance
   of providing safety alerts and traffic advisories to pilots.

One NMAC Was Unique to Circumstances Related to JFK Airport
The NMAC at JFK (JFK 001) differed from the four N90 NMACs in that it
occurred at the airport near the runway surface. The NMAC occurred when a
helicopter operated by U.S. Helicopters (operating under VFR) took off from a
controlled helipad and made a right turn towards runway 13R. The helicopter did
not enter or cross runway 13R. Nevertheless, a departing American Eagle pilot
(operating under IFR) was surprised by the location of the helicopter and
subsequently filed the NMAC. The report investigation revealed, however, that
the helicopter had the departing jet in sight and maintained visual separation with
that aircraft.

As shown in figures 2 and 3 below, the helipad is behind the terminal; once a
helicopter lifts off from the pad, it appears close to runway 13R at the point where
some aircraft begin to lift off. Additionally, under the previous procedures used,
departing helicopters were not restricted from turning towards runway 13R.

              Figure 2. Helicopter Departing Helipad at JFK



                                                                          Runway
                                                                           13R




             Helicopter
              Departing
            Helipad at JFK
                                                                                   10


                 Figure 3. Aircraft Departing Runway 13R




A contributing factor to the incident was that the helicopter operation had
relocated just 7 days prior to the NMAC from American Airline’s terminal on the
north side of the airport to Delta’s terminal on the south side of the airport;
therefore, the pilot may not have been accustomed to seeing a helicopter in the
area adjacent to the runway. In addition, the helicopter departure was being
controlled by a different controller than the one working the American Eagle
departure; therefore, the American Eagle pilots would not have been aware of the
departure instructions issued to the helicopter on another frequency.

FAA management at JFK and the helicopter operator agreed to change the
helicopter departure procedure to a left turn when Runway 13R is in use. We
observed the revised helicopter departure procedure in use at JFK and found that it
eliminates the potential conflict between departing helicopters and aircraft
departing runway 13R.

At the time of our site visit, however, this verbal agreement and the preceding
change of helicopter departure location were not formalized in the LOA that exists
between JFK Air Traffic management and the helicopter operator. In response to
our recommendation to formalize the procedure, FAA and the helicopter operator
revised their LOA in November 2007.

None of the NMACs Resulted From Controller Error or Staffing
We also reviewed the five NMACs to determine if controller actions (or inactions)
may have contributed to the incident. We found that none of the five NMACs
were the result of a controller operational error (when a controller fails to maintain
required separation between two aircraft) or staffing levels.
                                                                                      11


In the four N90 NMACs, only the commercial aircraft were under the direction of
air traffic controllers at the time of the incident. The other aircraft involved were
operating under VFR and were not being directed by controllers. In the NMAC at
JFK, the two aircraft were being directed by different controllers; however, in the
final NMAC report the inspector determined that there was no loss of separation
between the two aircraft.

While operational errors did not contribute to any of the five NMACs, controller
staffing has been a concern for many FAA stakeholders, given the high number of
projected controller retirements during the next 10 years. For example, at the New
York TRACON, overall staffing (the number of fully certified controllers)
decreased by 16 percent, from 213 in October 2001 to 178 in October 2007.

Because of controller staffing concerns, we analyzed controller staffing during the
five NMACs to determine whether that issue contributed to the incidents. We
determined that controller staffing did not appear to contribute to any of the five
NMACs, based on the information shown in table 3.

        Table 3. Controller Staffing at the Time of the N90 NMACs
 Date     Facility &    Scheduled     Actual     Number of Controllers         Position
            NMAC         Staffing    Staffing   Off Position (Percentage      Combined?
           Number                               of Staffing for that Shift)
5/1/07     N90-003         11          12             7 (58 percent)             No
5/5/07     N90-004         13          11             3 (27 percent)             No
5/8/07     N90-005         11          10             4 (40 percent)             No
5/17/07    JFK-001         12          10             5 (50 percent)             No
5/21/07    N90-006         17          16             5 (31 percent)             No

As shown in table 3, the actual staffing (fully certified controllers reporting to
work) was slightly less than the scheduled staffing (fully certified controllers
scheduled to work) when four of the NMACs occurred. However, between
27 percent and 50 percent of the controllers working that shift were not working
an operational position at the time of those events (i.e., they were on meal breaks,
in training, etc.). Further, none of the controllers were working combined
positions of operation when the NMACs occurred.

We are monitoring FAA’s efforts on controller staffing. In a separate audit, we
are evaluating FAA’s progress in implementing key staffing and training elements
of its Controller Workforce Plan. We will report the results of our review in early
2008.

As a result of the August 2006 Comair accident in Lexington, Kentucky, the
National Transportation Safety Board (NTSB) identified controller fatigue as a
safety concern. NTSB recommended that FAA revise work schedule policies and
                                                                                             12


practices to provide sufficient controller rest. Because of this recommendation,
we reviewed rest periods and shift rotations for controllers working on position
during the reported New York NMACs. We determined that controller fatigue did
not appear to be a contributing factor to the five NMACs.

                    Table 4. Individual Controller Shift Metrics
                            When the NMACs Occurred
     Date      Facility      Number of             Number of         Overtime       Hours of
                 and       Hours Off Duty         Consecutive        Scheduled      Overtime
                NMAC       Prior to NMAC        Minutes Worked        Week of      Worked Week
               Number           Shift          at Time of NMAC        NMAC?         of NMAC
    5/1/07     N90-003            39                  37                No              0
    5/5/07     N90-004            15                  67                No              0
    5/8/07     N90-005            16                  36                No              0
    5/17/07    JFK-001            14                  56                No              2
    5/21/07    N90-006            16                  61                No              8

As shown in table 4, all five controllers had rest periods ranging from 14 to
39 hours (a 20-hour average) before the NMAC shift, indicating there was ample
time for rest between shifts. Further, the five controllers worked between 36 and
67 consecutive minutes (averaging 51.4 minutes on position) when the NMACs
occurred, well below the goal of no more than 2 hours. 2

In addition, the five controllers were scheduled for 5-day work weeks with 8-hour
shifts and no scheduled overtime (OT) shifts during the week of the NMACs.
However, two of the five controllers incurred OT during the week of the NMACs,
one of whom worked the OT shift during the portion of the work week prior to the
incident. The controller working the position on May 17 during the NMAC at
JFK incurred 2 hours of overtime the previous day but was allotted a 14-hour
available rest period between the two shifts.

New York Area Airports Do Not Have Standard Operating Procedures
Similar to the Simultaneous Arrival Procedure FAA Discontinued at
Memphis
Prior to April 2007, controllers at Memphis International Airport used a local
standard operating procedure to clear an aircraft to land on a runway while
overflying another aircraft that had landed on a separate intersecting runway and
was taxiing off the runway.

The Air Traffic Control manual, FAA Order 7110.65, paragraph 3-10-4,
Intersecting Runway Separation, establishes Air Traffic procedures for arriving

2
    Per the FAA contract with NATCA, controllers can work a maximum of 2 hours on position before
    receiving a break.
                                                                                   13


aircraft with intersecting paths (see figure 4 below). The order requires that Air
Traffic:

    Separate an arriving aircraft using one runway from another aircraft using an
    intersecting runway or a nonintersecting runway when the flight paths
    intersect by ensuring that the arriving aircraft does not cross the landing
    threshold or flight path of the other aircraft until [a] preceding arriving
    aircraft is clear of the landing runway, completed landing roll and will hold
    short of the intersection/flight path, or has passed the intersection/flight path.

This order sets the parameters for ensuring proper runway separation to protect the
intersection (or runway flight paths’ intersection).

    Figure 4. Diagram of Arriving Aircraft With Intersecting Paths




Methods of complying with this requirement include but are not limited to: speed
control, spacing techniques, staggering approaches, and use of radar displays to
establish cut-off points.

In April 2007, Air Traffic Oversight Services group (part of FAA’s Safety line of
business) halted the Memphis overflight procedure, citing a violation of FAA
Order 7110.65 paragraph 3-10-4. The Oversight Services group determined that
to conduct the Memphis procedure, a legitimate waiver for Order 7110.65
paragraph 3-10-4 would be required. The Memphis tower began complying with
those requirements, and the Memphis TRACON began using equipment designed
to stagger simultaneous arrivals.

We observed operations at JFK, Newark, LaGuardia, and Stewart Air Traffic
Control towers and found that none of those conduct an overflight procedure
                                                                                    14


similar to the procedure discontinued at Memphis. However, we found that there
is an unresolved dispute over application of FAA Order 7110.65 paragraph 3-10-4
procedures in regard to arrivals on Runways 22L and 11, when that runway
configuration is in use at the airport.

The local National Air Traffic Controllers Association (NATCA) official at
Newark tower told us that while controllers apply procedures to comply with those
provisions of Order 7110.65 when using the 22L-11 runway configuration, the
New York TRACON, which hands off arrivals to Newark, should assume
responsibility for staggering simultaneous arrivals to ensure compliance with
paragraph 3-10-4. The NATCA official expressed safety concerns about using go-
arounds for landing aircraft when this runway configuration is in use.

In another circumstance, officials from the Air Traffic Organization worked with
Newark Air Traffic management and on October 5, 2007, FAA’s Air Traffic
Oversight Services granted a waiver to paragraph 3-10-4 in conducting a specific
operation using Runways 4R and 29. Officials from Safety Services stated that
this procedure increases safety and reduces go-arounds of landing aircraft.

We met with officials from the Air Traffic Organization, and they agreed to
commit resources to conduct a similar review of the Newark Runway 22L and 11
arrival configuration to see what procedures could be implemented to increase
safety and reduce go-arounds. Those plans are clearly steps in the right direction;
however, the analysis should also designate responsibility for staggering
simultaneous arrivals. In addition, local NATCA representatives should be
afforded the opportunity to provide input.

FAA’s Current Process for Reporting NMACs May Lead to
Misperceptions Regarding the Level of Safety Risk Posed by NMAC
Events
The lack of a procedure for reclassifying no-hazard events, the term “near mid-air
collision,” and the definition of a NMAC may contribute to misperceptions
regarding the actual safety risk posed by a NMAC event. We found that FAA’s
current reporting process for NMACs does not allow no-hazard events to be
reclassified, which can exaggerate the historical perspective of NMACs. For
example, four of the five New York NMACs were subsequently determined to be
no hazard, i.e., a collision was improbable regardless of evasive actions taken.
However, the four events will continue to be classified and counted as NMACs,
potentially masking early recognition of a trend in the highest risk NMACs.

FAA, union, and industry officials we spoke with agreed that the term “near mid-
air collision” is misleading. One top airline official stated that the public is misled
by the use of this term to describe an event where there was no danger. Since
                                                                                  15


events determined to be no hazard remain classified as NMACs, aviation users
may greatly misunderstand the proximity and the risk to safety of reported NMAC
events. For example, in FY 2007, 16 of the 66 total NMACs (or 24 percent),
where a collision hazard was identified, were determined to be no-hazard events—
yet they are still considered to be NMACs.

FAA’s criteria for defining a NMAC also may contribute to misperceptions
regarding events where no collision hazard existed. As defined by FAA, a NMAC
happens when either an actual collision hazard between two aircraft occurs or
when a pilot reports his or her perception that a collision hazard existed.
Therefore, when the outcome of the NMAC investigation reveals that there was no
collision hazard, the reported pilot perception of a collision hazard still meets the
near mid-air collision criteria as defined by FAA. The no-hazard event is
therefore still classified as a NMAC, and users may erroneously view the event as
a collision risk.

FAA must take action to mitigate misperceptions of safety risks posed by a
NMAC event. FAA’s Director of Air Traffic Safety Oversight Services stated that
he would like FAA to review the terminology of all air proximity events, including
NMACs, operational errors, and pilot deviations. He also stated that if all
proximity events, such as NMACs, remained unclassified until FAA completed an
investigation, they could be accurately classified. The ATO Safety Services
officials we spoke with concurred that NMAC reporting processes need to be
revised.

Accordingly, FAA should restructure the existing NMAC reporting process so that
the actual safety risks posed by reported events are accurately reflected. Actions
to better reflect actual safety risks could include developing a procedure to
reclassify no-hazard events, redefining the NMAC criteria, or revising the term
“NMAC.”
                                                                                16



RECOMMENDATIONS
We recommend that FAA:

 1. As part of the review and development of new or revised air traffic
    procedures under airspace redesign, evaluate whether commercial IFR arrival
    and departure routes into and out of the New York TRACON’s airspace
    should be redesigned or restricted to minimize potential conflicts with general
    aviation VFR air traffic.

 2. Conduct a safety analysis of the simultaneous arrival procedures at Newark
    Liberty International Airport when the runway 22L and 11 configuration is in
    use to identify measures needed to enhance safety and reduce go-arounds.
    That analysis also should designate responsibility for staggering approaches
    when that runway configuration is in use.

 3. Restructure the existing NMAC reporting process so that the actual safety
    risks posed by reported events are accurately reflected. Actions to better
    reflect actual safety risks could include developing a procedure to reclassify
    no-hazard events, redefining the NMAC criteria, or revising the term
    “NMAC.”

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a draft of this report on January 30, 2008, and received
FAA’s reply on April 1, 2008. FAA’s full response is included in the appendix to
this report. FAA concurred with each of our recommendations and provided
appropriate planned actions and target dates.

 • Recommendation 1: FAA stated that as it reviews and develops new or
   revised air traffic procedures under airspace redesign, it will conduct the
   recommended evaluation to minimize potential conflicts with general
   aviation VFR air traffic.

 • Recommendation 2: FAA stated the ATO Safety office will work with the
   ATO Terminal office, New York TRACON, and Newark tower to complete
   an initial safety assessment of the simultaneous arrival procedure at Newark
   Liberty International Airport by May 1, 2008. The managers of the New
   York TRACON and the Newark tower are already working this issue, and
   results of this initial work will be included in the assessment. If the
   assessment determines that changes are required, the process will be
   completed by July 1, 2008.
                                                                               17


 • Recommendation 3: FAA stated the ATO Safety office will work with the
   Air Traffic Safety Oversight office and consult with ATO Systems
   Operations, ATO Enroute and Oceanic Safety, as well as ATO Terminal
   Safety to research the history behind the existing NMAC definition and, if
   appropriate, will initiate the proposed change to the definition. By
   May 30, 2008, the appropriate groups will meet to determine required
   changes. No later than October 1, 2008, the appropriate groups will write the
   change proposal to the definition of a NMAC, request comments from
   interested parties, and implement the change through the appropriate office.

ACTIONS REQUIRED
FAA’s response and planned actions address the intent of our recommendations.
We therefore consider these recommendations resolved.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact Lou Dixon,
Assistant Inspector General for Aviation and Special Program Audits, at (202)
366-0500 or Dan Raville, Program Director, at (202) 366-1405.


                                        #

cc: FAA Acting Deputy Administrator
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                 18



EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence that provides a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusion based on our
audit objectives. We conducted this review between June 2007 and January 2008
using the following methodology.

To determine the root cause of the near misses in May 2007 in the New York
airspace and FAA’s measures to address these problems, we visited FAA
Headquarters in Washington, D.C., and the New York area air traffic facilities in
which the five near misses occurred. These included the New York TRACON and
John F. Kennedy, Newark, LaGuardia, and Stewart Airports. We interviewed key
FAA officials from the Air Traffic Organization Safety and Terminal Services
Offices and the Air Traffic Oversight Services division to discuss possible root
causes and the status of any FAA actions. We reviewed FAA’s investigation
report of the five NMACs to identify any recommended actions.

At each air traffic facility where a NMAC occurred, we interviewed Air Traffic
management and union representatives to obtain their view of possible root causes
and actions taken at the local level in response to the NMACs. We examined
controller staffing, time on position, workload, and work schedules at the time of
each incident to determine if staffing or fatigue were contributing factors. We
reviewed radar data associated with each incident and analyzed each of the five
NMAC preliminary reports. We interviewed Safety Inspectors that investigated
the NMACs and reviewed each of five NMAC final investigation reports.

To determine if any of the New York airports allow arriving aircraft to fly directly
over aircraft on another runway—a procedure that FAA halted at Memphis
Airport in April 2007—we interviewed FAA officials from the Air Traffic
Organization Safety Office, Air Traffic Organization Terminal, and the Air Traffic
Oversight Services division to obtain a detailed explanation of the halted Memphis
procedure and the reason it was halted. We met with Air Line Pilots Association
headquarters officials to obtain their concerns regarding the Memphis procedure.
We also interviewed management and union representatives and observed the
operations at Newark, John F. Kennedy, LaGuardia, and Stewart Airports to
determine if a similar procedure was in use.

We did not rely on automated databases as part of this audit.



Exhibit A. Scope and Methodology
                                                                              19



EXHIBIT B. AGENCIES VISITED OR CONTACTED
 • FAA officials from Safety Services and Terminal within the Air Traffic
   Organization.

 • FAA officials from the Air Traffic Safety Oversight Services group within
   FAA’s Safety line of business.

 • Air Line Pilots Association, International (ALPA) Headquarters officials in
   Herndon, VA.

 • Facility management and National Air Traffic Controllers Association
   (NATCA) facility representatives from the New York TRACON (N90), and
   Kennedy, LaGuardia, and Newark Air Traffic Control towers.

 • Facility management from Stewart Air Traffic Control tower.

 • Local Flight Standards District Offices (FSDO) representatives responsible for
   investigating the NMACs.

 • JetBlue Headquarters officials (2 of the NMACs were from this airline).

 • Continental and Express Jet (Jetlink) airline officials (1 NMAC each from
   these airlines).

 • Program Manager for the New York/New Jersey/Philadelphia metropolitan
   Area Airspace Redesign.




Exhibit B. Agencies Visited or Contacted
                                                          20




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


   Daniel Raville                      Program Director

   Mary (Liz) Hanson                   Project Manager

   Annie Glenn                         Senior Analyst

   Mark Gonzales                       Senior Analyst

   Ben Huddle                          Analyst

   Amy (Tasha) Thomas                  Analyst

   Andrea Nossaman                     Writer-Editor

   Jean Diaz                           Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                                  21


      EXHIBIT D. REQUEST FROM SENATOR CLINTON
HILLARY RODHAM CLINTON                                                                           COMMITTEES:
          NEW YORK                                                                                ARMED SERVICES
                                                                                           ENVIRONMENT AND PUBLIC WORKS
         SENATOR                                                                       HEALTH, EDUCATION, LABOR, AND PENSIONS
                                                                                            SPECIAL COMMITTEE ON AGING
RUSSELL SENATE OFFICE BUILDING
           SUITE 476
   WASHINGTON, DC 20510-3204
         202-224-4451                     WASHINGTON, DC 20510-3204

                                                June 11, 2007


      The Honorable Calvin L. Scovel III
      Inspector General
      United States Department of Transportation
      400 Seventh Street, S.W.
      Washington, D.C. 20590

      Dear Mr. Scovel:

               I write in regard to the disturbing reports that in the month of May, there were five near-
      misses involving commercial aircraft In the New York metropolitan area. This is especially shocking
      in light of the fact that there were only three such occurrences in all of 2006.

              The New York metropolitan region is the busiest, most complex and compact airspace in the
      country. There is no room for error. Safe and efficient operations are critical to the traveling public
      and the economy of the New York metropolitan area. It is imperative that this pattern is corrected
      before the onset of the busy summer travel season.

               I understand that the Federal Aviation Administration (FAA) has begun its internal
      investigation; however these incidents call for a broader investigation into the safety of our nation’s
      busiest system and our ability to avoid catastrophic airline collisions. I request that you immediately
      conduct an investigation into the root causes for these near misses in the New York region and the
      actions the FAA is taking to resolve these issues.

          Specifically, I would ask that your investigation review the following questions:

           •    What is the root cause of the near misses in May of 2007 in the New York airspace?
           •    How is the FAA addressing these problems and what measures has the FAA taken to prevent
                repeat occurrences?
           •    In April of this year, the FAA ordered a halt to the practice at Memphis International Airport
                that allowed arriving aircraft to fly directly over planes on another runway that had nearly
                resulted in a midair collision. Do any of the airports in the New York area practice this type
                of procedure?

      I look forward to your response and thank you for attention to this matter.

                                                 Sincerely yours,



                                                 Hillary Rodham Clinton

      Exhibit D. Request From Senator Clinton
                                                                                                        22



APPENDIX. AGENCY COMMENTS
                      Federal Aviation
                      Administration


Memorandum
Date:            April 1, 2008
To:              Lou E. Dixon, Assistant Inspector General for Aviation and Special Program Audits
From:           Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:         OIG Draft Report: Review of Reported Near Mid-Air Collisions in the New York
                 Metropolitan Airspace


Thank you for the opportunity to review and comment on the findings and recommendation of the
subject draft report dated January 30. FAA concurs with each of your recommendations and the
agency’s planned actions for each is as follows:

OIG Recommendation 1: As part of the review and development of new or revised air traffic
procedures under airspace redesign, evaluate whether commercial instrument flight rules (IFR) arrival
and departure routes into and out of the New York Terminal Radar Approach Control’s (TRACON)
airspace should be redesigned or restricted to minimize potential conflicts with general aviation visual
flight rules (VFR) air traffic.

FAA Response: Concur. As we review and develop new or revised air traffic procedures under
airspace redesign, we will conduct the recommended evaluation.

OIG Recommendation 2: Conduct a safety analysis of the simultaneous arrival procedures at
Newark Liberty International Airport when the runway 22L and 11 configuration is in use to identify
measures needed to enhance safety and reduce go-arounds. That analysis should also designate
responsibility for staggering approaches when that runway configuration is in use.

FAA Response: Concur. The Air Traffic Organization (ATO) Safety office will work with
ATO-Terminal office, N90 and EWR ATCT to complete an initial Safety assessment. This initial
assessment will be completed by May 1 and if further safety analysis is required, the ATO-Terminal
office will be asked to complete with whatever assistance from the ATO-Safety office is requested.
Although this issue stems from issues other than the original near mid-air collision (NMAC)
investigation, we feel that its inclusion in the report is appropriate due to the possibility of go-arounds
and missed approaches at the Newark Airport which affects the New York Area Airspace. The
Manager of the New York TRACON and the Manager of Newark ATCT are already working this
issue and initial work will be included in the assessment. If the assessment determines that changes
are required we will encourage that process to be concluded by July 1.


Appendix. Agency Comments
                                                                                                 23


OIG Recommendation 3. Restructure the existing near mid-air collision (NMAC) reporting process
so that the actual safety risks posed by reported events are accurately reflected. Actions to better
reflect actual safety risk could include developing a procedure to reclassify no-hazard events
redefining the NMAC criteria, or revising the term “NMAC.”

FAA Response: Concur. The ATO Safety office will work with the Air Traffic Safety Oversight
Office and consult with ATO Systems Operations, ATO-Enroute and Oceanic Safety, as well as
ATO-Terminal Safety to research the history behind the existing definition and if appropriate will
initiate the Change Proposal. We will meet with the appropriate groups referred to by May 30 and
determine the requirements and accept all input. Following May 30, we will write the change
proposal, accept all comments and implement through the appropriate office if necessary. Final date
will be no later than October 1.

If you have any questions or need further information, please contact Anthony Williams, Budget
Policy Division, ABU-100 on (202) 267-9000.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts included in
this document. These pages were not in the original document but have been
added here to accommodate assistive technology.
 Review of Reported Near Mid-Air Collisions in the New York Metropolitan
                               Airspace

                    Section 508 Compliant Presentation

Table 1. Five Reported Near Mid-Air Collisions (NMAC) During May 2007 in
New York Airspace

 Date of Near    Facility and NMAC      Reporting          Second Aircraft         Hazard
  Mid-Air              Number          Aircraft and        and Flight Rules     Classification
 Collision (or                         Flight Rules
   NMAC)
 May 1, 2007         N90-003         Reporting aircraft   Second aircraft        No Hazard
                                     involved:            involved:
                                     JetBlue,             Unidentified
                                     operating under      aircraft, operating
                                     instrument flight    under visual flight
                                     rules                rules
  May 5, 2007        N90-004         Reporting aircraft   Second aircraft         Potential
                                     involved:            involved:
                                     JetLink,             Unidentified
                                     operating under      aircraft, operating
                                     instrument flight    under visual flight
                                     rules                rules visual flight
                                                          rules
  May 8, 2007        N90-005         Reporting aircraft   Second aircraft        No Hazard
                                     involved:            involved:
                                     JetBlue,             Unidentified
                                     operating under      aircraft, operating
                                     instrument flight    under visual flight
                                     rules                rules visual flight
                                                          rules
 May 21, 2007        N90-006         Reporting aircraft   Second aircraft        No Hazard
                                     involved:            involved:
                                     Continental,         Unidentified
                                     operating under      aircraft, operating
                                     instrument flight    under visual flight
                                     rules                rules visual flight
                                                          rules
 May 17, 2007        JFK-001         Reporting aircraft   Second aircraft        No Hazard
                                     involved:            involved: US
                                     American Eagle,      Helicopter,
                                     operating under      operating under
                                     instrument flight    visual flight rules
                                     rules                visual flight rules
Table 2. Similar Characteristics of the Four N90 Near Mid-Air Collisions

      Date       Facility   Nature of    Proximity    Proximity
                   and       Class E     to Change        to
                 NMAC       Airspace         of        Transfer
                 Number                   Airspace    of Control
  May 1, 2007    N90-003    Nature of   Proximity    Proximity
                            Class E     to Change    to Transfer
                            Airspace:   of           of Control:
                            Yes         Airspace:    No
                                        Yes
  May 5, 2007    N90-004    Nature of   Proximity    Proximity
                            Class E     to Change    to Transfer
                            Airspace:   of           of Control:
                            Yes         Airspace:    Yes
                                        Yes
  May 8, 2007    N90-005    Nature of   Proximity    Proximity
                            Class E     to Change    to Transfer
                            Airspace:   of           of Control:
                            Yes         Airspace:    Yes
                                        No
  May 21, 2007   N90-006    Nature of   Proximity    Proximity
                            Class E     to Change    to Transfer
                            Airspace:   of           of Control:
                            Yes         Airspace:    Yes
                                        Yes

Figure 1. Various Classifications of New York Airspace

Picture chart showing the various types of airspace in and around the New York
metropolitan area.
Source: FAA

Figure 2. Helicopter Departing Helipad at JFK

Photograph shows a helicopter departing the helipad at JFK airport.
Source: OIG

Figure 3. Aircraft Departing Runway 13R

Photograph of an aircraft taking off from runway 13R which shows the adjacency
of the runway to the helipad at JFK.
Source: OIG
Table 3. Controller Staffing at the Time of the N90 Near Mid-Air Collisions

     Date        Facility &    Scheduled        Actual         Number of         Position
                  NMAC          Staffing       Staffing       Controllers       Combined?
                  Number                                      Off Position
                                                             (Percentage of
                                                              Staffing for
                                                               that Shift)
  May 1, 2007    N90-003      Scheduled      Actual         Number of           No combined
                              Staffing: 11   Staffing: 12   Controllers Off       position
                                                            Position
                                                            (Percentage of
                                                            Staffing for that
                                                            Shift) 7 (58
                                                            percent)
  May 5, 2007    N90-004      Scheduled      Actual         Number of           No combined
                              Staffing: 13   Staffing:11    Controllers Off       position
                                                            Position
                                                            (Percentage of
                                                            Staffing for that
                                                            Shift) 3 (27
                                                            percent)
  May 8, 2007    N90-005      Scheduled      Actual         Number of           No combined
                              Staffing: 11   Staffing:10    Controllers Off       position
                                                            Position
                                                            (Percentage of
                                                            Staffing for that
                                                            Shift) 4 (40
                                                            percent)
  May 17, 2007   JFK-001      Scheduled      Actual         Number of           No combined
                              Staffing: 12   Staffing:10    Controllers Off       position
                                                            Position
                                                            (Percentage of
                                                            Staffing for that
                                                            Shift) 5 (50
                                                            percent)
  May 21, 2007   N90-006      Scheduled      Actual         Number of           No combined
                              Staffing: 17   Staffing:16    Controllers Off       position
                                                            Position
                                                            (Percentage of
                                                            Staffing for that
                                                            Shift) 5 (31
                                                            percent)
Table 4. Individual Controller Shift Metrics When the Near Mid-Air
Collisions Occurred
      Date       Facility and    Number of       Number of     Overtime     Hours of
                   NMAC          Hours Off      Consecutive    Scheduled    Overtime
                  Number         Duty Prior       Minutes       Week of     Worked
                                 to NMAC         Worked at      NMAC?       Week of
                                    Shift         Time of                    NMAC
                                                  NMAC
   May 1, 2007     N90-003      Number of       Number of     Overtime     Hours of
                                Hours Off       Consecutive   Scheduled    Overtime
                                Duty Prior to   Minutes       Week of      Worked
                                NMAC Shift:     Worked at     NMAC? No     Week of
                                39              Time of                    NMAC: 0
                                                NMAC: 37
   May 5, 2007     N90-004      Number of       Number of     Overtime     Hours of
                                Hours Off       Consecutive   Scheduled    Overtime
                                Duty Prior to   Minutes       Week of      Worked
                                NMAC Shift:     Worked at     NMAC? No     Week of
                                15              Time of                    NMAC: 0
                                                NMAC: 67
   May 8, 2007     N90-005      Number of       Number of     Overtime     Hours of
                                Hours Off       Consecutive   Scheduled    Overtime
                                Duty Prior to   Minutes       Week of      Worked
                                NMAC            Worked at     NMAC? No     Week of
                                Shift:16        Time of                    NMAC: 0
                                                NMAC: 36
  May 17, 2007     JFK-001      Number of       Number of     Overtime     Hours of
                                Hours Off       Consecutive   Scheduled    Overtime
                                Duty Prior to   Minutes       Week of      Worked
                                NMAC            Worked at     NMAC? No     Week of
                                Shift:14        Time of                    NMAC: 2
                                                NMAC: 56
  May 21, 2007     N90-006      Number of       Number of     Overtime     Hours of
                                Hours Off       Consecutive   Scheduled    Overtime
                                Duty Prior to   Minutes       Week of      Worked
                                NMAC            Worked at     NMAC? No     Week of
                                Shift:16        Time of                    NMAC: 8
                                                NMAC: 61
Figure 4. Diagram of Arriving Aircraft With Intersecting Paths
Diagram showing how arriving aircraft can be positioned with intersecting paths.
Source: FAA
